                         Federal Register / Vol. 66, No. 29 / Monday, February 12, 2001 / Notices                             9865

were awarded loan repayment contracts         DEPARTMENT OF HEALTH AND                     Independence Avenue, SW.,
prior to FY 2000 will be awarded              HUMAN SERVICES                               Washington, DC 20201.
extensions up to the amount of $30,000                                                       We do not accept comments by
a year and 31 percent in tax subsidy if       Office of Inspector General                  facsimile (FAX) transmission. In
funds are available, and will not exceed                                                   commenting, please refer to file code
the total of the individual’s outstanding     Privacy Act of 1974; Amendment to the
                                              Health Care Program Violations               OIG–52–N. Comments received timely
eligible health profession educational                                                     will be available for public inspection as
loans.                                        System of Records
                                                                                           they are received, generally beginning
   Any individual who owes an                 AGENCY: Office of Inspector General          approximately 3 weeks after publication
obligation for health professional            (OIG), HHS.                                  of a document, in Room 5541 of the
service to the Federal Government, a          ACTION: Notice and comment period.           Office of Inspector General at 330
State, or other entity is not eligible for                                                 Independence Avenue, SW.,
the LRP unless the obligation will be         SUMMARY: In accordance with the              Washington, DC, on Monday through
completely satisfied before they begin        provisions of the Privacy Act of 1974,       Friday of each week from 8 a.m. to 4:30
service under this program.                   the Office of Inspector General (OIG) is     p.m.
                                              amending an existing system of records,
   The IHS Area Offices and Service                                                        FOR FURTHER INFORMATION CONTACT: Joel
                                              entitled ‘‘Health Care Program
Units are authorized to provide                                                            Schaer, OIG Regulations Officer, (202)
                                              Violations.’’ This system of records
additional funding to make awards to                                                       619–0089.
                                              maintains certain health care sanction
applicants in the LRP, but must be in
                                              records for the purpose of making            SUPPLEMENTARY INFORMATION:
compliance with any limits in the
                                              sanction decisions publically available.
appropriation and Section 108 of the                                                       I. Background
                                              In order to assure the proper
Indian Health Care Improvement Act
                                              identification of sanctioned individuals,    A. The Federal Health Care Program
not to exceed the amount authorized in
                                              we are amending the category of records      Violations System of Records
the IHS appropriation (up to
                                              maintained in the system to include
$22,000,000 for FY 2001).                                                                     Under current law, individuals and
                                              individual Social Security numbers
   Should an IHS Area Office contribute       (SSNs). The purpose of maintaining           entities must be excluded from
to the LRP, those funds will be used for      SSNs is to provide another field of          participation in Federal health care
only those sites located in that Area.        identification which may be entered by       programs in accordance with section
Those sites will retain their relative        those querying the system; these SSNs        1128 of the Social Security Act (42
ranking from the national site-ranking        will not be accessible by users of the       U.S.C. 1320a–7) for certain types of
list. For example, the Albuquerque Area       system. In addition, in the future,          convictions, and may be excluded for
Office identifies supplemental monies         entities listed in the system will be able   other reasons, including licensure board
for dentists. Only the dental positions       to be queried by their Employer              actions, other Federal or State agency
within the Albuquerque Area will be           Identification number (EIN).                 actions, and quality of care violations.
funded with the supplemental monies              This notice also makes other              In conjunction with this authority, the
consistent with the national ranking and      amendments to the system of records          ‘‘Health Care Program Violations’’
site index within that Area.                  that include more specifically               system of records, maintained by the
   Should an IHS Service Unit                 describing the categories of individuals     OIG, serves as a source of public
contribute to the LRP, those funds will       covered by the system; adding a routine      information on all individuals or
be used for only those sites located in       use for disclosure of information as         entities excluded from Federal health
that service unit. Those sites will retain    required by the Federal Acquisition          care programs. This system of records
their relative ranking from the national      Streamlining Act of 1994; revising the       also provides the organizations
site-ranking list. For example, Chinle        routine use for disclosure of information    responsible for licensing, certifying or
Service Unit identifies supplemental          in the event of litigation; and explaining   otherwise approving the health-related
monies for pharmacists. The Chinle            the method of retrievability for             activities of individuals and entities
Service Unit consist of two facilities,       electronic records. Additional minor         with the information they may need to
namely the Chinle Comprehensive               technical changes include revising the       make decisions. The system of records
Health Care Facility and the Tsaile PHS       period of record retention for paper         also allows health care employers to
Indian Health Center. The national            records; adding a retention period for       check on the exclusion status of new
ranking will be used for the Chinle           electronic records; and changing the         and current employees and contractors.
Comprehensive Health Care Facility            point of contact for the record              This is of particular importance to
(Score = 44) and the Tsaile PHS Indian        notification procedure.                      hospitals and other health care entities,
Health Center (Score = 46). With a score      DATES: Effective date: This revision will    which are subject to civil money
of 46, the Tsaile PHS Indian Health           become effective, without further notice,    penalties, as authorized by Public Law
Center would receive priority over the        on March 29, 2001, unless comments           105–33, for hiring or contracting with
Chinle Comprehensive Health Care              received on or before that date result in    excluded individuals and entities.
Facility.                                     a contrary determination.                    Finally, the system of records serves as
   This program is not subject to review         Comment date: Comments on this            a fraud deterrent by virtue of public
under Executive Order 12372.                  revision will be considered if we receive    knowledge of its very existence, and
                                              them at the address provided below no        provides the OIG with a means of
(The Catalog of Federal Domestic Assistance                                                analyzing trends and impact in fraud
number is 93.164)
                                              later than 5 p.m. on March 14, 2001.
                                              ADDRESSES: Please mail or deliver            and abuse detection and enforcement.
  Dated: February 2, 2001.                    written comments to the following               Procedural information regarding the
Michel E. Lincoln,                            address: Office of Inspector General,        ‘‘Health Care Program Violations’’
Deputy Director.
                             Department of Health and Human               system of records was last published in
[FR Doc. 01–3488 Filed 2–9–01; 8:45 am]
      Services, Attention: OIG–52–N, Room          the Federal Register on August 26, 1982
BILLING CODE 4160–16–M                        5246, Cohen Building, 330                    (47 FR 37693).
9866                       Federal Register / Vol. 66, No. 29 / Monday, February 12, 2001 / Notices

B. Content of, and Querying, the                 individual as part of their search. The      exclusions, as required by law. This
Records System                                   commenters believe inclusion of this         routine use provision provides essential
   Information from paper case files,            additional search field is necessary to      information to other Federal agencies
found in the Civil and Administrative            produce more reliable identification on      with respect to individuals and entities
Investigative Files of the Inspector             the query match, and to ensure that no       barred from participating in Federal
General system of records (47 FR 43099,          individuals are erroneously determined       procurement and non-procurement
September 30, 1982), is extracted and            to be excluded because of the inability      programs or activities.
compiled into a master List of Excluded          to get accurate information. In many            In addition, paragraph 3 under
Individuals/Entities (LEIE). This list           cases, the queries are being received        ‘‘Routine Use’’ is revised to outline the
contains the Social Security numbers             from health care providers who are           necessary disclosures made in the
(SSNs) of most individuals excluded              considering hiring or contracting with       course of litigation involving the
from participation in Federal health care        an individual or entity and want to          Department, its employees, or the
programs by the OIG. The SSNs are not            know if that particular individual or        United States. It is essentially the same
published on the LEIE and are not                entity is excluded. As such, these health    type of disclosure provision found in
accessible to the general public. In the         care providers already have the SSN of       most Federal systems of records and is
near future, the list will also contain the      a particular individual.                     necessary to the effective administration
                                                    The purpose of including individual       of justice in such proceedings. In
EINs of entities excluded by the OIG
                                                 SSNs (and EINs, if applicable) in this       addition, this revision brings this
from participation in the Federal health
                                                 system is to allow individuals querying      systems notice into conformity with the
care programs.1
   The LEIE is transmitted and made              the LEIE to use SSNs and EINs as             similar routine use used in the Civil and
available electronically to other Federal        specific search fields. However, the         Administrative Investigative Files of the
                                                 SSNs maintained in the system will not       OIG system of records.
agencies and organizations that are
                                                 be accessible by those using an SSN for
required by law to take action based                                                          D. Retrievability
                                                 identification. The OIG will include
upon the exclusions imposed by the
                                                 fields where a user may input SSN or            The method for retrieving records is
OIG. In addition, the LEIE is available
                                                 EIN information. The individual SSNs         expanded to include both paper and
to the general public on the OIG’s web
                                                 or EINs will not be retrievable through      electronic records, including a revised
site at http://www.dhhs.gov/progorg/
                                                 the LEIE. In order to use the SSN or EIN     list of the types of information that can
oig. The on-line searchable database
                                                 search field, the individual entering the    be used to retrieve the records. This
allows users to obtain information
                                                 query must have the full name and the        revision also sets forth instructions on
regarding excluded individuals and
                                                 9 digits of an individual’s SSN. The         how to indirectly access the database on
entities sorted by:                              query will either affirm a match or state
   • The legal bases for the exclusion;                                                       public records through the Internet; this
   • The types of individuals and                that no match exists; the LEIE will not      information was absent from the
entities excluded by the OIG; and                verify the SSN or EIN. It is ultimately      existing outdated description.
   • The States where excluded                   the recipient’s responsibility to verify
                                                 the information before using it as the       E. Other Minor Revisions
individuals reside or entities do
business at the time of their exclusions.        basis for any formal action.                   Other minor changes are also being
   Users may also query the database in          B. Categories of Individuals Covered by      made to clarify certain provisions and
order to ascertain whether a particular          the System                                   bring the system of records notice into
individual or entity is currently                                                             conformity with organizational,
                                                   The current description of the             legislative and policy changes. They
excluded from program participation by
                                                 individuals covered by this system is        include:
submitting the pertinent information
                                                 being revised to more specifically             • Records Retention—The retention
regarding the subject. Users may have
                                                 describe the categories of providers,        period for paper records is being
the data sorted by name, profession or
                                                 contractors, grantees and other              expanded from 5 years to 6 years to
specialty, city, state, zip code or
                                                 individuals that are now in the system       bring it into conformity with the
sanction type. Users may input
                                                 of records. This revised description         retention period established for records
information in any of these fields and
                                                 more accurately reflects the categories of   of OIG by the National Archives and
will receive a list of currently excluded
                                                 individuals, permitting retrieval of         Records Administration. In addition, the
individuals and entities which meet the
                                                 information on some additional key           retention period for electronic records is
criteria entered.
                                                 individuals who are not described in the     included.
II. Amendment to the System of                   current outdated description. In               • Notification Procedure—The
Records                                          addition, the revised description brings     notification procedure is revised to
   The following summarizes the major            this systems notice into conformity with     provide a point of contact for media
changes being proposed:                          the categories of sanctioned individuals     inquiries and a new point of contact for
                                                 covered in the Civil and Administrative      written notification requests.
A. Categories of Records in the System           Files of the OIG system of records.          Information on how to request records
  This amendment to the system of                C. Routine Uses                              electronically is also included.
records will include individual SSNs
                                                    In the system of records, under            Dated: February 2, 2001.
and EINs within the category of records
                                                 ‘‘Routine Use,’’ a new paragraph 1.d. is     Michael F. Mangano,
in the Health Care Program Violations
system as another field of identification.       being added to provide for disclosures       Acting Inspector General.
The OIG has received numerous                    required by the Federal Acquisition
                                                                                              HHS\OS\OIG 09–90–0101
comments from users of the LEIE that             Streamlining Act of 1994, Public Law
those querying the system should be              103–355. The disclosures set forth           SYSTEM NAME:
able to input the SSN of an excluded             under this routine use provide the             Health Care Program Violations.
                                                 information necessary for other Federal
  1 Some individuals may also be referenced by   agencies and their agents to enforce         SECURITY CLASSIFICATION:
EINs in addition to their SSN.                   debarments, suspensions and                    None.
                        Federal Register / Vol. 66, No. 29 / Monday, February 12, 2001 / Notices                                     9867

SYSTEM LOCATION:                               ROUTINE USES OF RECORDS MAINTAINED IN THE     POLICIES AND PRACTICES FOR STORING,
  This system is located in the Office of      SYSTEM, INCLUDING CATEGORIES OF USERS AND     RETRIEVING, REVEALING, RETAINING, AND
                                               PURPOSES OF SUCH USES:                        DISPOSING OF RECORDS IN THE SYSTEM:
Inspector General, Department of Health
and Human Services, 330 Independence              1. Information maintained by this          STORAGE:
Avenue, SW., Washington, DC 20201.             system may be disclosed, as a routine
                                                                                                Paper records, which includes
The database for this system, known as         use, to Federal, State, local, public and
                                                                                             program exclusion case files, are kept in
the List of Excluded Individuals/Entities      private agencies and organizations, as
                                                                                             files and file folders. Electronic records
(LEIE), is on a local area network in the      follows:
                                                                                             are stored on hard or floppy disks and
Wilber H. Cohen Building, 330                     a. Agencies or organizations which
                                                                                             tapes.
Independence Avenue, SW.,                      reimburse or regulate individuals or
Washington, D.C. The system is                 entities with respect to the furnishing of    RETRIEVABILITY:
operated by the Office of Inspector            health-related services or items.                The agency retrieves records from
General.                                          b. Agencies or organizations which         files indexed alphabetically by
                                               license, certify, or otherwise regulate the   geographic region. Both paper records
CATEGORIES OF INDIVIDUALS AND ENTITIES         health-related activities of individuals      and electronic records are retrievable by
COVERED BY THE SYSTEM:                         and entities which provide health care        agency-assigned internal case control
  Individuals and entities covered by          services or items, to alert them to           numbers, name, personal identifier
this system are employees and former           possibly disqualifying actions, practices     fields such as date of birth, UPIN, Social
employees, HHS grantees, contractors,          or conditions.                                Security or Employer Identification
sub-contractors and their employees;              c. Agencies or organizations charged       number, address, specialty/occupation,
employees of State agencies and                with investigating or prosecuting             program violated, date of exclusion, and
Medicare carriers and intermediaries;          possible violations indicated in items a      type of exclusion.
Medicare and Medicaid providers;               and b.                                           Indirect access to the database on
recipients under programs administered            d. Agencies and their agents or
                                                                                             public records fields is available to the
or funded by the Federal and State             representatives enforcing debarments,
                                                                                             general public on the OIG’s Internet site
programs; and others involved in health        suspensions and exclusions under the
                                                                                             (http://www.dhhs.gov/progorg/oig).
care. It includes individuals and entities     Federal Acquisition Streamlining Act of
who have been excluded from                    1994.                                         SAFEGUARDS:
participation in the Medicare, Medicaid,          e. Upon written request, agencies and/        Paper records are stored in secured
and all Federal health care programs as        or their contractors or organizations         cabinets behind a locked door with
defined in section 1128B(f) of the Social      seeking information in connection with        access limited to authorized personnel.
Security Act. The individuals would            the hiring or retention of an employee,       Computer based records are available
include physicians, nurses, pharmacists,       the issuance of a security clearance, the     only to authorized users and are
dentists, therapists, suppliers and            reporting of an investigation of an           safeguarded in accordance with the
private citizens receiving Federal             employee, the awarding of a contract, or      provisions of the National Bureau of
payments for the furnishing of items or        the issuance of a license, grant or other     Standards Federal Information
services covered by any Federal or             benefit by the requesting agency, to the      Processing Standards 41 and 31, and the
private program.                               extent that the record is relevant and        HHS Information Processing Standards,
                                               necessary to the requesting agency’s          HHS ADP Systems Manual, Part 6,
CATEGORIES OF RECORDS IN THE SYSTEM:           decision on the matter.                       ‘‘ADP Systems Security.’’ All computer
   The Health Care Program Violations             f. Professional and business               tapes are password protected
System contains public information on          organizations concerned with standards        prohibiting unauthorized access.
individuals and entities which have            and conduct of individuals and entities
been excluded from participation in the        engaged in providing health care items        RETENTION AND DISPOSAL:
Medicare, Medicaid, and all other              and services.                                   The OIG maintains the hardcopy
Federal health care programs (after               g. Scholars or other researchers           records and files for one year, after
August 1997, in accordance with Pub. L.        investigating trends and characteristics      which they are transferred to the
105–33), including names, publicly             in the health care field.                     Federal Records Center for an additional
available Social Security numbers,                2. Disclosure may be made to a             5 years. The electronic records system is
individual Social Security numbers (and        Congressional office from the record of       maintained for an indefinite period of
Employer Identification numbers, if            an individual or entity in response to an     time.
applicable), aliases and ‘‘doing­              inquiry from the Congressional office
business-as,’’ addresses, and other            made at the request of that individual or     SYSTEM MANAGER(S) AND ADDRESS:

available unique identifiers related to        entity.                                         The Systems Manager is an employee
fraud, waste and abuse; occupations and           3. In the event of litigation,             of Office of Investigations, Office of
specialties, and institutional affiliations;   information from the system of records        Inspector General, Department of Health
type and date of exclusion.                    may be disclosed to the Department of         and Human Services, 330 Independence
                                               Justice, to a judicial or administrative      Avenue, SW., Washington, DC 20201.
AUTHORITY FOR MAINTENANCE OF THE SYSTEM:       tribunal, opposing counsel, and               The OIG web site is managed by the
  5 U.S.C. App. 3.                             witnesses, in the course of proceedings       Office of Information Technology, Office
                                               involving HHS, any HHS employee               of Inspector General, at this same
PURPOSES:                                      (where the matter pertains to the             address.
  The Health Care Program Violations           employee’s official duties), or the
System is used to protect program              United States, or any agency thereof          NOTIFICATION PROCEDURE:
beneficiaries and to reduce fraud and          where the litigation is likely to affect        An individual who wishes to be
abuse in Federal health care programs          HHS, or HHS is a party or has an              notified whether the system contains a
by providing a clearinghouse of public         interest in the litigation and the use of     record should make a request
information on individuals and entities        the information is relevant and               electronically to the OIG web site at
excluded from health care programs.            necessary to the litigation.                  http://www.dhhs.gov/progorg/oig.
9868                     Federal Register / Vol. 66, No. 29 / Monday, February 12, 2001 / Notices

Media inquiries should be directed to          Name of Committee: National Cancer             Review and Resources Branch, Division of
the HHS/OIG External Affairs Office,         Institute Initial Review Group, Subcommittee     Extramural Activities, National Cancer
330 Independence Avenue, SW.,                F—Manpower & Training.                           Institute, National Institutes of Health, 6116
                                               Date: March 4–7, 2001.                         Executive Boulevard, Room 8045, Bethesda,
Washington, DC 20201. Requests for             Time: 6:30 p.m. to 3 p.m.                      MD 20892, 301/594–1566.
written documentation should be                Agenda: To review and evaluate grant
submitted in writing, together with a                                                         (Catalogue of Federal Domestic Assistance
                                             applications.
                                                                                              Program Nos. 93.392, Cancer Construction;
printout from the OIG web site                 Place: Holiday Inn—Georgetown, 2101
                                                                                              93.393, Cancer Cause and Prevention
identifying the individual or entity, to     Wisconsin Avenue, NW., Washington, DC
                                                                                              Research; 93.394, Cancer Detection and
the Office of Investigations, Health Care    20007.
                                                                                              Diagnosis Research; 93.395, Cancer
Administrative Sanctions, Room N2–             Contact Person: Mary Bell, PhD., Scientific
                                                                                              Treatment Research; 93.396, Cancer Biology
                                             Review Administrator, Grants Review
01–26, 7500 Security Boulevard,                                                               Research; 93.397, Cancer Centers Support;
                                             Branch, Division of Extramural Activities,
Baltimore, MD 21244–1850.                    National Cancer Institute, National Institutes
                                                                                              93.398, Cancer Research Manpower; 93.399,
                                                                                              Cancer Control, National Institutes of Health,
                                             of Health, PHS, DHHS, 6116 Executive
RECORD ACCESS PROCEDURE:                                                                      HHS)
                                             Boulevard, Room 8113, Bethesda, MD 20892–
  Same as notification procedure.            8328, 301–496–7978.                                Dated: February 2, 2001.
                                             (Catalogue of Federal Domestic Assistance        LaVerne Y. Stringfield,
CONTESTING RECORD PROCEDURES:
                                             Program Nos. 93.392, Cancer Construction;        Director, Office of Federal Advisory
  An individual who wishes to contest        93.393, Cancer Cause and Prevention              Committee Policy.
the record procedures should contact         Research; 93.394, Cancer Detection and           [FR Doc. 01–3455 Filed 2–9–01; 8:45 am]
the Office of Health Care Administrative     Diagnosis Research; 93.395, Cancer               BILLING CODE 4140–01–M
Sanctions, Office of Investigations,         Treatment Research; 93.396, Cancer Biology
Office of Inspector General, Department      Research; 93.397, Cancer Centers Support;
                                             93.398, Cancer Research Manpower,; 93.399,
of Health and Human Services, Room                                                            DEPARTMENT OF HEALTH AND
                                             Cancer Control, National Institutes of Health,
N2–01–26, 7500 Security Boulevard,           HHS)                                             HUMAN SERVICES
Baltimore, MD 21244–1850. The                  Dated: February 2, 2001.
individual or entity should reasonably                                                        National Institutes of Health
                                             LaVerne Y. Stringfield,
identify the record and specify the          Director, Office of Federal Advisory
information to be contested, the                                                              National Cancer Institute; Notice of
                                             Committee Policy.                                Closed Meetings
corrective action sought and the reasons     [FR Doc. 01–3454 Filed 2–9–01; 8:45 am]
for the correction, with supporting                                                              Pursuant to section 10(d) of the
                                             BILLING CODE 4140–01–M
documentation.                                                                                Federal Advisory Committee Act, as
                                                                                              amended (5 U.S.C. Appendix 2), notice
RECORD SOURCE CATEGORIES:
                                             DEPARTMENT OF HEALTH AND                         is hereby given of meetings of the Board
  The sources are Government and             HUMAN SERVICES                                   of Scientific Counselors, National
private agencies and organizations.                                                           Cancer Institute.
                                             National Institutes of Health                       The meetings will be closed to the
SYSTEMS EXEMPTED FROM CERTAIN PROVISIONS
OF THE ACT:
                                                                                              public as indicated below in accordance
                                             National Cancer Institute; Notice of             with the provisions set forth in section
  None.                                      Closed Meeting                                   552b(c)(6), Title 5 U.S.C., as amended
[FR Doc. 01–3419 Filed 2–9–01; 8:45 am]         Pursuant to section 10(d) of the              for the review, discussion, and
BILLING CODE 4152–01–P                       Federal Advisory Committee Act, as               evaluation of individual intramural
                                             amended (5 U.S.C. Appendix 2), notice            programs and projects conducted by the
                                             is hereby given of the following                 National Cancer Institute, including
DEPARTMENT OF HEALTH AND                     meeting.                                         consideration of personnel
HUMAN SERVICES                                  The meeting will be closed to the             qualifications and performance, and the
                                             public in accordance with the                    competence of individual investigators,
National Institutes of Health                provisions set forth in sections                 the disclosure of which would
                                             552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,       constitute a clearly unwarranted
National Cancer Institute; Notice of                                                          invasion of personal privacy.
Closed Meeting                               as amended. The grant applications and
                                             the discussions could disclose                     Name of Committee: Board of Scientific
   Pursuant to section 10(d) of the          confidential trade secrets or commercial         Counselors, National Cancer Institute
Federal Advisory Committee Act, as           property such as patentable material,            Subcommittee B—Basic Sciences.
amended (5 U.S.C. Appendix 2), notice        and personal information concerning                Date: March 5, 2001.
is hereby given of the following             individuals associated with the grant              Time: 12:15 p.m. to 5 p.m.
                                                                                                Agenda: To review and evaluate personal
meeting.                                     applications, the disclosure of which            qualifications and performance, and
   The meeting will be closed to the         would constitute a clearly unwarranted           competence of individual investigators.
public in accordance with the                invasion of personal privacy.                      Place: National Cancer Institute, Building
provisions set forth in sections               Name of Committee: National Cancer             31, C Wing, 6th Floor, Conference Rooms 6,
552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,   Institute Special Emphasis Panel Small           9000 Rockville Pike, Bethesda, MD 20892.
as amended. The grant applications and       Grants Program for Behavioral Research in          Contact Person: Florence E. Farber, PhD.,
the discussions could disclose               Cancer Control.                                  Health Scientist Administrator, Institute
                                               Date: March 1, 2001.                           Review Office, Office of the Director,
confidential trade secrets or commercial
                                               Time: 8 a.m. to 5 p.m.                         National Cancer Institute, National Institutes
property such as patentable material,                                                         of Health, 6116 Executive Boulevard, Room
                                               Agenda: To review and evaluate grant
and personal information concerning          applications.                                    7017, Bethesda, MD 20892, 301/496–7628.
individuals associated with the grant          Place: Ramada Inn, 1775 Rockville Pike,          Name of Committee: Board of Scientific
applications, the disclosure of which        Rockville, MD 20852.                             Counselors, National Cancer Institute,
would constitute a clearly unwarranted         Contact Person: Mary Jane Slesinski, PhD.,     Subcommittee A—Clinical Sciences and
invasion of personal privacy.                Scientific Review Administrator, Special         Epidemiology.
